0

BECKER GALLAGHER
Briefs

and

Supreme Court ofthe United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Heather Campbell, hereby certify that 40 bound
copies and 1 unbound copy of the foregoing
Respondent's Brief in Opposition to Petition for Writ of
Certiorari in 21-107, Edward Thomas Kendrick, III v.
Mike Parris, Warden, were sent via Next Day Service
to the U.S. Supreme Court, 3 copies by Next Day and
e-mail service to the following parties listed below, this
8th day of October, 2021:
Stephen Ross Johnson
Ritchie, Davies, Johnson & Stovall, P.C.
606 W. Main Street, Suite 300
Knoxville, TN 37902
(865) 637-0661
johnson@rddjlaw.com

Counsel for Petitioner
Herbert H. Slatery III
Attorney General and Reporter
State of Tennessee
Andree Sophia Blumstein
Solicitor General

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102

Franklin Square
' 1300 I Street, NW, Suite 400E

Cincinnati, Ohio 45249

' Washington, DC 20005

John H. Bledsoe
Counsel of Record
Deputy Attorney General
Federal Habeas Corpus Division
500 Dr. Martin L. King Jr. Blvd.
P.O. Box 20207
Nashville, Tennessee 37202-0207
J ohn.Bledsoe@ag.tn. gov
(615) 741-4351

Counsel for Respondent

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on October 8, 2021.

Heather Campbell
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.

Notary Public

·

[seal]

JOHN 0. GALLAGHER
Notary Public, State of Ohio
My Commission Expires
rebruary 14, 2023

